No. 20-7935

IN THE SUPREME COURT OF THE UNITED STATES

WILMAR RENE DURAN GOMEZ, PETITIONER
v.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE

I certify that all parties required to be served have been served with copies of the
reply brief of petitioner.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 18, 2021.

/s/ Cullen Macbeth

Cullen Macbeth

Assistant Federal Public Defender
Federal Public Defender’s Office
District of Maryland

6411 Ivy Lane, Suite 710
Greenbelt, MD 20770

(301) 344-0600
cullen_macbeth@fd.org
Service List

Elizabeth Prelogar

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
